  Peace Corps
  Office of Inspector General




    Traditional kasbah near the town of Taroudant




                  Flag of Morocco


Final Program Evaluation Report:
      Peace Corps/Morocco
                                              February 2010
Final Program Evaluation Report:
      Peace Corps/Morocco
                    IG-10-06-E




        ______________________________________________


                  Susan Gasper
Acting Assistant Inspector General for Evaluation




                  February 2010
                           EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an evaluation of Peace
Corps/Morocco’s operations June 1 – 24, 2009. The evaluation covered fiscal years 2007
and 2008 and reviewed programming, training, Volunteer support, health care, Volunteer
safety, housing, work sites, and staff organization.

At the onset of our field work, there were 213 Volunteers and 37 staff in Morocco.
Interviews were conducted with 42 (20%) Volunteers and with 15 in-country staff.
Additional interviews were conducted with Peace Corps headquarters staff, U.S.
Embassy representatives in Morocco, and key project partners. PC/Morocco has four
projects: (1) environment; (2) health; (3) small business development; and (4) youth
development.

PC/Morocco is an experienced and resourceful post that works hard to tackle several
significant challenges. PC/Morocco has the second largest number of Volunteers
worldwide. Volunteers are broadly dispersed within Morocco’s mountainous and
sometimes hard-to-access terrain. Morocco continues to cope with the aftermath of the
events of September 11th; the continuing instability in Iraq, Iran, and the Middle East; and
ongoing concerns over the potential for further domestic terrorism. Volunteers in
Morocco often struggle with issues related to language, religion, gender, harassment, and
politics. In meeting these complex challenges, PC/Morocco has qualified, professional,
and experienced staff members dedicated to the Peace Corps mission. Nevertheless,
PC/Morocco is showing signs that staffing levels are insufficient to meet the extensive
and complex support needs of the program:

   •   Programming staff are overworked and struggle to provide Volunteer support
       needs such as site visits, report feedback, and regular communications.
   •   Peace Corps Medical Officers (PCMOs) have an unmanageable workload, and the
       Office of Medical Services (OMS) has recommended additional staff.
   •   The Safety and Security Coordinator (SSC) is strained by a continuous flow of
       Volunteer communications. Recommendations for additional safety and security
       staff have come from the Office of Safety and Security, OMS, and the U.S.
       embassy in Rabat.

We also identified the following opportunities to improve the effectiveness of Peace
Corps/Morocco:

   •   The youth development and small business development projects should develop
       Project Advisory Councils.
   •   Cross-cultural training sessions should be more interactive and focus on cultural
       integration.
   •   Volunteers need more support in selecting language tutors at site.
   •   Trainees over the age of 50 need additional support with language learning.


Final Program Evaluation Report: Peace Corps/Morocco                                       i
   •   Language and Cultural Facilitators (LCFs) often lack the training and experience
       needed to effectively conduct training.
   •   Programming staff seek increased levels of managerial involvement from the
       Programming and Training Officer (PTO) and wider involvement with the
       training program.
   •   Volunteers are experiencing technical difficulties in submitting performance
       reporting.

Our report contains 16 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Morocco                                      ii
                                                             Table of Contents

EXECUTIVE SUMMARY ................................................................................................. I

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 2

EVALUATION RESULTS ................................................................................................ 4
PROGRAMMING ............................................................................................................................................... 4

CROSS-CULTURAL UNDERSTANDING .............................................................................................................. 7

TRAINING ........................................................................................................................................................ 9

VOLUNTEER SUPPORT ................................................................................................................................... 12

MANAGEMENT CONTROLS ............................................................................................................................ 18


POST STAFFING ............................................................................................................. 21

INTERVIEWS CONDUCTED ........................................................................................ 22

LIST OF RECOMMENDATIONS .................................................................................. 23

APPENDIX A: MANAGEMENT'S RESPONSE

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                     HOST COUNTRY BACKGROUND

Morocco is located in northwestern Africa between Algeria and Western Sahara with
coasts on the North Atlantic Ocean and the Mediterranean Sea. Morocco was occupied
by Arabic forces beginning in the seventh century. The Alaouite dynasty, which has
ruled Morocco since 1649, claims descent from the Prophet Muhammad. Today,
Morocco is ruled by a strong monarchy with a weak parliament and judiciary. Morocco
became a French protectorate in 1912 and a protracted struggle for independence with
France ended successfully in 1956.

Morocco faces many issues typical of developing countries, including achieving
sustainable economic growth and increasing education and job prospects for youth.
Morocco remains vulnerable to drought as over 40% of the population is dependent on
rain-fed agricultural production. Morocco also continues to cope with the aftermath of
the events of September 11th; the continuing instability in Iraq, Iran, and the Middle East;
and ongoing concerns over the potential for domestic terrorism.

Morocco has a long-established patriarchal culture in which Moroccan women are
traditionally confined to their homes and men are not accustomed to the presence of
women. Consequently, most female Volunteers are prohibited from entering certain
places or participating in traditionally male-only activities. On the other hand, some male
Volunteers are restricted access to the Moroccan family unit, which is the traditional
domain of women. As a result, cultural integration for most Volunteers is limited to
prescribed gender roles.


              PEACE CORPS PROGRAM BACKGROUND
The United States and Morocco share an active country agreement that was signed in
1963. Over 4,000 Volunteers have since served in Morocco. Volunteers were evacuated
in April 2003, following the U.S. invasion of Iraq. The program was reopened in July
2003, following a safety assessment conducted by the Peace Corps Office of Safety and
Security in collaboration with the Moroccan government.

At the onset of this evaluation there were 258 Volunteers serving in Morocco. There are
two Volunteer inputs each year. A health and environment training class of 60
Volunteers was sworn in on April 29, 2009, and a small business development and youth
development training class of 57 was sworn in on November 12, 2009. Volunteers in
Morocco serve in the following four projects:

   •   Environment: Volunteers help people in rural communities who are living in or
       nearby protected areas raise their living standards by integrating a careful and
       responsible approach to the use and management of natural resources and the
       environment into all their agriculture and non-agriculture livelihood activities.
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                           1
   •   Health: Volunteers strive to help rural community members achieve better health
       status through preventive practices reinforced by positive social and
       environmental change.

   •   Small Business Development: Volunteers help motivated entrepreneurs at the
       local level – including individual artisans and groups, as well as professional
       training organizations for women – meet growing market demand in a way that
       increases economic opportunity while enhancing personal dignity and
       professional efficacy. Volunteers work principally in rural communities by
       providing practical training and limited logistical support in areas of product
       quality and service, organizational development, business management, and
       individual empowerment/community leadership.

   •   Youth Development: Volunteers provide youth with educational opportunities to
       develop their ability to improve their lives. Volunteers work directly with their
       local community to support local and national youth development efforts through
       work at their local Youth Centers and Women’s Centers.


           OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote effectiveness and efficiency in government.
In February 1989, the Peace Corps/OIG was established under the Inspector General Act
of 1978, as amended, and is an independent entity within the Peace Corps. The Inspector
General (IG) is under the general supervision of the Peace Corps Director and reports
both to the Director and Congress.

The Evaluation Unit within the Peace Corps Office of Inspector General provides the
agency with independent evaluations of all management and operations of the Peace
Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.
The last OIG program evaluation of Morocco took place in 2002.

The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of PC/Morocco on April 24, 2009. For post evaluations, we use the following
researchable questions to guide our work:
   •   To what extent has the post developed and implemented programs intended to
       increase the capacity of host country communities to meet their own technical
       needs?
   •   To what extent has the post implemented programs to promote cross-cultural
       understanding?
   •   To what extent does training provide Volunteers the necessary knowledge, skills,
       and attitudes to integrate into the community and perform their jobs?

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                          2
    •   To what extent has the post provided adequate support and oversight to
        Volunteers?
    •   To what extent are post resources and agency support and oversight effectively
        aligned with the post’s mission and program and agency priorities?

The evaluation team conducted the preliminary research portion of the evaluation April
27 – May 29, 2009. This included review of agency documents provided by headquarters
and post staff and interviews with management staff representing the region and the
Office for Overseas Programming and Training Support (OPATS). In-country fieldwork
occurred June 1 – 24, 2009, and was comprised of interviews with post senior staff in
charge of programming, training, and support; the acting U.S. Ambassador; the Regional
Security Officer; and host country government ministry officials. In addition, we
interviewed a stratified judgmental sample of 20% of currently serving Volunteers based
on their length of service, site location, project focus, gender, age, and ethnicity. Table 1
provides demographic information that represents the entire Volunteer population in
Morocco; our Volunteer interview sample was selected to reflect these demographics.

        Table 1: PC/Morocco Volunteer Demographic Data
                                Project                            Percentage of Volunteers
          Environment                                                       23%
          Health                                                            29%
          Small Business Development                                        26%
          Youth Development                                                 22%
                            Gender                                 Percentage of Volunteers
          Male                                                              39%
          Female                                                            61%
                              Age                                  Percentage of Volunteers
          25 or younger                                                     75%
          26-29                                                             15%
          30-54                                                              7%
          55 and over                                                        3%
        Source: PC/Morocco Volunteer Roster, May 2009.



Forty-three Volunteers were identified as part of the sample. 1 Volunteer interviews were
conducted using a standardized interview questionnaire, and Volunteers were asked to
rate items on a five-point scale (1 = not effective, 5 = very effective). The analysis of
these ratings provided a quantitative supplement to Volunteers’ comments, which were
also analyzed. For the purposes of the data analysis, Volunteer ratings of “3” and above
are considered favorable. In addition, 28 of 42 Volunteer interviews occurred at the
Volunteers’ homes, and we inspected these homes using post-defined site selection


1
  Due to scheduling conflicts, seven Volunteers were removed from the original sample and six
replacements were added. In total, 42 Volunteer interviews were conducted.
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                                3
criteria. The period of review for a post evaluation is one full Volunteer cycle (typically
27 months).

At the end of our fieldwork review, we briefed the country director and other staff at the
post concerning their respective program and oversight responsibilities. At headquarters,
we conducted a briefing for the regional staff, the Office of Programming and Training
Support, the Office of Volunteer Recruitment and Selection, and the Office of Medical
Services on findings pertaining to their respective areas of responsibility.

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency. The evidence,
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.


                            EVALUATION RESULTS
PROGRAMMING

The evaluation assessed whether the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical
needs. To determine this, we analyzed the following:
   •   The coordination between Peace Corps and the host country in determining
       development priorities and Peace Corps program areas.
   •   The existence of project plans based on host country development priorities and
       the Volunteers’ understanding of the project plan goals and objectives.
   •   Whether Volunteers are placed in sites where they can contribute meaningfully to
       meeting host country development priorities.
   •   Relationships with counterparts that enable Volunteers to have productive work
       assignments that meet host country development priorities.

A majority of the Volunteers we interviewed reported they were satisfied with their site
placements and performed activities relevant to their project plan goals. Most Volunteers
(70%) had a primary counterpart that they met with at least twice a week. Of the 15
Volunteers we interviewed who no longer worked with their initially assigned
counterpart, ten had found a new counterpart with whom they meet with at least twice a
week.




Final Program Evaluation Report: Peace Corps/Morocco
                                                                                              4
       Table 2: Volunteer Responses to Select Interview Questions
               Volunteer Interview Question                 Rating1
        How satisfied are you with your site
                                                    98% satisfied (3) or better
        placement?
        How well do your activities relate to your
                                                    90% moderate (3) or better
        project goals/objectives?
        Please characterize your working
                                                     82% average (3) or better
        relationship with your primary counterpart.
       Source: OIG interviews with 42 Volunteers.
       1
         Volunteers rated these questions on a five-point scale (1 = not at all, 5 = very well).



PC/Morocco is collaborating effectively with ministry partners in both the health and
environment projects to ensure project plan goals and objectives are aligned with host
country development priorities. Each of these projects has a functioning Project
Advisory Council (PAC) that meets regularly to discuss programming issues. By
contrast, the effectiveness of partnerships with the small business development and youth
development projects could be improved, and neither project has a functioning PAC.

Host country ministry partners for the small business development and youth
development projects were unfamiliar with key aspects of the project plans.

Host country ministry partners working with the small business development and youth
development projects appeared to be unfamiliar with key elements of Peace Corps project
plans. Officials with the Ministry of Tourism, Artisans, and Social Economy reported
that they were unsure why Small Business Development Volunteers are placed in rural
locations. Ministry officials reported that Volunteers placed in larger communities could
generate more revenue. However, the 2007 project plan clearly states the capacity
building purpose of the rural placements of Volunteers as follows: “PCVs will narrowly
focus their attention on assisting rural entrepreneurs with fewer capital resources and
embryonic levels of professional development… Volunteers will be posted in small
towns as well as remote rural areas.” Revenue generation is not included as a project
goal.

In another project partner interview, officials with the Ministry of Youth and Sports
appeared to be confused why Youth Development Volunteers are not placed in larger
communities where the government-run youth houses are better funded and therefore
attract more children. However, the Youth Development Project Plan states, “Youth
Development Volunteers work in Youth and Women’s Centers in small to medium-sized
towns generally far from major metropolitan areas…”

According to Indicators of a High Performing Post, the best way to avoid these types of
misunderstandings is to meet regularly with project partners.

       Some type of regularly scheduled meetings or contacts are needed that
       will serve to monitor activities and bring participants together to analyze

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                                   5
       project accomplishments and relations…If such meetings are not taking
       place, then there are probably some very important things about which one
       side or the other doesn’t know.

Regular meaningful contact with project partners can be accomplished through the
formation of PACs. OPATS’ 2006 Project Plan Reviews advised forming PACs for both
of these projects. An OPATS monitoring and reporting workshop conducted in May
2009 again recommended the formation of PACs for both projects. The PTO told the
OIG that he is supportive of increased coordination with the small business development
and youth development project partners.


               We recommend:

               1. That youth development project staff establish a
                  PAC with the Ministry of Youth and Sport.

               2. That small business development project staff
                  establish a PAC with the Ministry of Tourism,
                  Artisans, and Social Economy.


Youth Development Volunteers reported they were not meeting one of three stated
project plan goals.

We interviewed four second-year Youth Development Volunteers and five first-year
Youth Development Volunteers.

The four second-year Volunteers identified the third goal of their project plan as an area
of little or no activity. The third goal of the Youth Development project is to engage
parents and community members in the youth development process. Third goal activities
are intended to occur during a Volunteer’s second year of service. The second-year
Volunteers we interviewed attributed the lack of success with this goal to a lack of
community interest. Their comments included:

       These are impoverished, uneducated people thinking about daily living -
       not thinking about their kid's basketball game.

       The third goal…is unlikely to happen based on perceptions in this country.

       I still can't figure out how to get parents involved.

In an interview, the PTO acknowledged that the youth development project has “a long
way to go” to meet this particular goal.



Final Program Evaluation Report: Peace Corps/Morocco
                                                                                         6
In contrast to these Volunteer reports, the 2008 Youth Development Project Status
Review (PSR), which is a part of the post’s annual performance reporting process, stated
that a large number of individuals and communities were positively impacted by third
goal activities. The PSR elicited positive OPATS feedback:

       One noteworthy comment is that this PSR demonstrates remarkable strides
       in the last several years with preparing Volunteers to engage community
       adults and parents in support of youth development activities. Some of the
       successes listed in the PSR are truly impressive.

It is not clear if the discrepancy between Volunteer perceptions and performance
reporting calls for an adjustment to reporting practices or programming or both. As a
first step, programming staff should determine the feasibility of the project plan’s third
goal activities by holding discussions with Volunteers and project partners. The PAC,
whose formation was proposed in the previous finding, would provide a good forum for
this discussion.


               We recommend:

               3. That the post reassess the feasibility of the youth
                  development project plan’s third goal with
                  Volunteers, project partners, and OPATS.


CROSS-CULTURAL UNDERSTANDING

The second objective of a post evaluation assesses whether Peace Corps programs in a
given country help promote a better understanding of Americans on the part of the people
served. Cultural exchange is an integral part of the transfer of knowledge and skills that
occurs between host-country community partners and Volunteers. To understand the
extent to which the post has implemented programs and activities to promote cross-
cultural understanding, we interviewed Volunteers, post staff, and project partners and
reviewed training and evaluation materials.

Ministry officials reported in interviews that they were impressed with the cultural
integration of Volunteers. One ministry official reported, “Volunteers are very interested
in Moroccan culture — they even learn the Berber language after just a few months.” An
official at another ministry reported being “astonished” by Volunteer fluency with
Moroccan languages and dialects.

Volunteers and post staff reported that language, harassment, and gender issues are the
biggest cultural barriers faced by Volunteers. Volunteers have been successful at
navigating cultural gender issues, and only five out of 42 Volunteers in our sample (two
male and three female), identified gender roles as a major challenge they face with their
work activities. The impact of language issues is addressed in the Training section of this
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                             7
report and harassment issues are addressed in the Training and Volunteer Support
sections of this report.

Volunteers we interviewed gave themselves a satisfactory rating at understanding cultural
issues, with an average rating of 3.9 on a 5-point scale (1 = not at all, 5 = very well);
however, Volunteers and staff identified cross-cultural training as an area where
improvements could be made.

Staff and Volunteers reported that cross-cultural training was not effectively
developing key integration skills.

Effective cross-cultural training should comprise more than simply learning information
about another culture — it should also help Volunteers understand how to reconcile
differences between the host country’s culture and their own beliefs and teach them how
and when to adjust their behavior. According to Culture Matters, the Peace Corps cross-
cultural workbook:

       The essence of cross-cultural understanding is knowing how your own
       culture is both similar to and different from the local or “target” culture.

       The Peace Corps experience has a number of built-in dilemmas, but none
       more significant than the question of how one adjusts to a different culture
       and still maintains one’s own values, identity and self-respect.

Almost half of the Volunteers we interviewed were critical of the cross-cultural sessions
in PST. Volunteers reported that cultural content was delivered using PowerPoint
presentations and lectures instead of interactive or experiential learning formats.
Volunteers also reported that cross-cultural sessions often ignored their perspective on
the adjustment experience. Their comments included:

       [Cross-cultural training was] informative but we were not prepared about
       how we would feel about the cultural differences and given coping
       mechanisms.

       We'd talk about what we were experiencing and it was like it was swept
       under the rug.

       We were expected to tolerate the things that we found offensive.

Post staff report that the cross-cultural training sessions were often taught by
inexperienced Language and Cultural Facilitators (LCFs) who had received only two
weeks of training to prepare them for PST. Several post staff acknowledged that cross-
cultural training sessions could be more effective. One staff member commented, “Most
of the cross-cultural [learning] is left for Volunteers to discover…We [teach] a lot of
culture but we don’t do much cross-culture. Integration, not assimilation, is the goal.

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                            8
There is a cultural manual with lots of topics but nothing about ‘what does this mean for
[the Volunteer]?’”

An improvement strategy has been indicated in the post’s 2010 – 2012 Integrated
Planning and Budget Strategy (IPBS) submission, which states, “[PC/Morocco will
enhance the] effectiveness of Language-Cross Culture training by increasing the
effectiveness of Language and Cross-culture Coordinators.” The post can apply this
strategy by using the Language and Cross-culture Coordinators 2 (LCCs) to develop
cross-cultural training sessions that are interactive and relevant to trainees.


                 We recommend:

                 4. That the post implement the strategy outlined in its
                    IPBS to enhance the effectiveness of cross-cultural
                    training sessions.


TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:
    •   The existence of training goals, competencies, and learning objectives that help a
        post understand the skills Volunteers need.
    •   The types of training Volunteers and trainees receive, the topics covered during
        those training sessions, and whether training targets were met.
    •   The feedback on the effectiveness of training in providing the skills and
        knowledge needed for Volunteer assignments and success.

In reviewing PC/Morocco’s Training Design and Evaluation (TDE) elements, the OIG
found that PC/Morocco has implemented a competency-based training model and
established core and sector competencies and learning objectives. PC/Morocco is in
compliance with the training criteria set forth in the Director’s TDE Memorandum of
November 2, 2006.

Due to budget cuts, PC/Morocco reduced the March 2009 PST from 11 to eight weeks by
removing most of the technical training. 3 The Training Manager reported that Language
Proficiency Index (LPI) scores increased with the shorter training because the removal of
technical sessions increased the time available for language learning. After three months
at site, Volunteers attended a two-week post-PST that focused on technical training.
2
  There are two full-time LCCs on staff, distinct from the part-time LCFs hired for each PST.
3
  The post increased the length of the September 2009 PST to nine weeks to include one week of technical
training.
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                                           9
We asked Volunteers to rate the effectiveness of PST in several key areas – language,
culture, safety and security, medical and health, and technical aspects. Overall, we found
that PC/Morocco Volunteers were satisfied with their training. Technical training
received notably lower scores than the other areas, which can be attributed partially to a
particular input. Small Business Development Volunteers from the September 2007
input accounted for 54% (seven of 13) of the unsatisfactory ratings of technical training.
Volunteers and post staff reported dissatisfaction with the Small Business Development
Program Manager, who was let go shortly after the September 2007 cohort were sworn
in. Volunteers from the most recent PST were not asked to rate technical training since
they had not yet received any.

Table 3: Volunteer Perceptions of PST Training Effectiveness
                                        Below                         Above          Very
                        Ineffective                  Moderate
    PST Area                (1)
                                       Average
                                                       (3)
                                                                     Average       Effective     Average
                                         (2)                           (4)            (5)
Language1                   2%            10%           48%            19%           21%           3.5
Culture1                    2%            10%           31%            45%           12%           3.5
Safety/Security1            0%            7%            31%            48%           14%           3.7
Medical/Health2             3%            3%            31%            46%           18%           3.7
Technical3                  7%            37%           47%             7%            3%           2.6
Source: OIG interviews with 42 Volunteers.
1
  N=42
2
  N=39
3
  N=30 (The April 2009 input did not include technical training, which was scheduled for July)



Volunteers were not effective in identifying language trainers at their site.

Volunteers in Morocco learn either Dirija or Berber. Dirija is a spoken form of Arabic
distinct from the standard Arabic, and Moroccan Berber has three distinct dialects each
with numerous localized variations on pronunciation and vocabulary. Both languages are
characterized as difficult to learn. In general, Volunteers were satisfied with their
language training. However, half of the Volunteers we interviewed identified language
as an ongoing obstacle to work and community integration, including over half of the
sample who had been in-country for more than a year and a third of the sample who had
been in-country for a year and a half. PC/Morocco provides Volunteers with a monthly
tutoring subsidy for up to a year after PST.

Post staff reported that Volunteers often lack the language skills necessary to identify a
competent tutor when they arrive at their sites and rural sites have very few adults with
literacy skills or language tutoring skills. The post could increase the efficiency and
effectiveness of in-service language learning by helping Volunteers select appropriate
language tutors and providing alternative language learning support if a tutor cannot be
found.


Final Program Evaluation Report: Peace Corps/Morocco
                                                                                                         10
               We recommend:

               5. That the post develop criteria to select appropriate
                  language tutors and provide alternative language
                  learning support if a tutor cannot be found.


Trainees over the age of 50 years struggled with language learning.

All five Volunteers over the age of 50 that we interviewed reported that language is an
ongoing challenge to work and community integration. According to the 2008 Volunteer
Survey Global Report, 46% of 50+ Volunteers reported speaking the local language
“poorly” or “not at all,” compared to only 16% of Volunteers under the age of 50. In the
March 2009 PST, two of three 50+ trainees did not reach the required novice high
language level as compared to two of 60 trainees less than 50 years of age.

According to post training staff, older trainees need language trainers with the expertise
to conduct multi-level learning classes. However, the PTO reported that there are no
funds in the training budget to add differential learning techniques to the LCF training.

PC/Morocco received ten 50+ trainees in the September 2009 input, three times the
number from the previous PST and almost half the small business development project
input. The small business development project would be significantly impacted if
language learning results are similar to the previous PST. In addition to the impact on
programming, safety and security concerns surface when Volunteers are unable to
communicate effectively at site.


               We recommend:

               6. That post enhance LCF training to accommodate
                  the language learning needs of older trainees.


Language and Cultural Facilitators (LCFs) often lack prior training and experience.

Due to a competitive job market in Morocco, the LCF position has a high turnover rate.
As a result, PST is usually staffed with new and inexperienced LCFs. The LCFs received
two weeks of training prior to PST but several post staff members report that the LCFs
need more training. According to an OPATS Training Specialist, “one or two weeks of
training may not be enough to understand the underlying issues of adjustment for
trainees.” There are no agency LCF training requirements. Guidance in the
Programming and Training Booklet 6 simply states, “The length of the training of trainers
depends on the experience of the team.” The PTO reported that the training of trainers is
limited by the budget to two weeks.

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                          11
The post should look for ways to enhance the LCF training for PST. Peace Corps’s
Programming and Training Booklet 6, How to Integrate Programming and Training,
suggests implementing a four-tiered strategy to involve multiple staff members in the
staff development process of PST. The strategy promotes, “Staff [to] work together to
provide information and training so that all full-time and part-time staff have the
knowledge, skills, and attitudes to work with trainees and Volunteers.”


               We recommend:

               7. That the post implement a strategy to improve the
                  PST planning and increase the level of experience of
                  PST staff.


Volunteers lacked training in racial harassment awareness.

Several Volunteers who experienced racial harassment reported a lack of training on
racial issues in Morocco. As a result, the Volunteers experiencing racial harassment felt
a lack of support in dealing with those issues.

PC/Morocco leadership reported that racial harassment was a serious issue faced by
minority Volunteers. Although there was a PST learning objective relating to diversity
issues, training did not focus on issues related to racial harassment.


               We recommend:

               8. That the post incorporate racial harassment
                  awareness and coping mechanisms into the training
                  curriculum.


VOLUNTEER SUPPORT

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, the evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), and the handling of crime incidences; and the
adequacy of the Volunteer living allowance.

Volunteers report overall satisfaction with post staff in helping them adjust to life as a
Volunteer. Table 4 shows Volunteer ratings of staff on a five-point scale (1 = not at all, 5
= very well).

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                         12
  Table 4: Volunteer Responses on Perception of Support
                          % rating “average
   Area of Support                                      Average Rating
                          support” or better
   Leadership                   100%                         4.8
   Programming                   95%                         3.9
      ENV project               100%                         4.5
      HE project                100%                         4.5
      YD project                 78%                         3.3
      SBD project                84%                         3.6
   Safety and
                                 95%                         4.0
   Security
   Medical                       87%                         3.6
   Administrative                96%                         4.1
   Source: The Leadership score was derived from the score for the country director; the
   Programming score was derived by averaging the scores for the PTO, Program Managers and
   Program Assistants; Project scores were derived by averaging the scores for the Program Manager
   and Program Assistant in each sector; the Safety and Security score was derived from the score for
   the Safety and Security Coordinator; the Medical score was derived from the score for the three
   Peace Corps Medical Officers; the Administrative score was derived from the score for the
   Administrative Officer.



PC/Morocco benefits from a highly qualified and experienced staff. The senior-most
staff member began working for Peace Corps in 1971, and most programming staff have
10 – 20 years of Peace Corps experience. Volunteer responses indicate that Volunteer
support in Morocco was good overall. However, there were indications that the number
of Volunteers has grown beyond what can be reasonably supported by the post staff.

At the onset of this evaluation there were 258 Volunteers in Morocco, making it the
second largest Peace Corps post. There are no agency requirements for determining staff
to Volunteer ratios. However, in interviews, regional management reported that
PC/Morocco has reached growth limits and the PC/Morocco country director reported
that he is not supportive of further growth at current staffing levels. Almost all of the
staff interviewed at the post identified the large number of Volunteers as a significant
challenge to a number of support areas. We identified three areas where the efficiency
and effectiveness of Volunteer support are in need of improvement: programming staff;
medical unit; and safety and security coordinator.

Staff reported that they struggled to provide support to the large number of Volunteers
in Morocco.

Programming staff

In interviews, all of the programming staff report challenges managing heavy workloads.
The PTO reports that programming staff spend approximately 40-50% of their time
traveling and 30-50% of their time in the office on the phone with Volunteers or

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                                        13
responding to emails. Programming staff feel overloaded and often fall behind with
returning phone calls and emails to Volunteers.

Half of the Volunteers we interviewed reported that programming staff were too busy to
provide the level of support they expect. Volunteer comments included:

       Everyone has so much on their plate - they need more employees.
       Communication would improve with more staff.

       [The] size of the program - feels like there are too many
       Volunteers per staff. The ratio is not good.

       [My PM] doesn’t seem to have time to listen and get the whole
       story. I don't bother to email, I don't expect a response.

Similarly, 28% (24 of 87) of the 2008 Biennial Volunteer Survey responses from
PC/Morocco Volunteers to an open ended question about improving Peace Corps in
Morocco identified program support issues caused by over-extended staff. According to
Indicators of a High Performing Post, the effectiveness of program managers (PM)
requires that they have enough time to gain an understanding of their Volunteers’
conditions:

       With regard to the Volunteers, APCD/PMs must find an effective
       combination of site visits, correspondence, ISTs and workshops,
       coordination with PCVLs, personal contact with individual Volunteers,
       and everything else that is required to gain a full understanding of the
       Volunteers’ conditions, problems, needs, and points of view.

Volunteers in Morocco reported difficulties communicating with programming staff due
to slow response times and unresponsiveness. Many Volunteers reported that persistence
was required to get the support they needed. Consequently, programming staff were less
aware of Volunteer conditions and therefore less capable of providing Volunteer support
and conducting effective project planning, monitoring, and development.

Other areas of programming support were directly impacted by insufficient attention
from programming staff, including quarterly report feedback and site visits. Half of the
sampled Volunteers reported that they were unsatisfied with the quality of their quarterly
report feedback. Several Volunteers reported that feedback was no more than a
confirmation that the report had been received. Staff reported that they do not have
enough time to provide written feedback for each report.

Programming staff spend 40-50% of their time out of the office conducting site visits and
are required to schedule multiple Volunteer visits each day. One staff member reported
that six hours are necessary to conduct a complete site visit but in reality only half that
time is available. One or more components of the site visit are therefore cut, such as
meeting with community members or reviewing housing criteria. Although 79% of
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                         14
Volunteers gave favorable ratings to the effectiveness of site visits, Volunteers reported
that staff should spend more time with them during site visits.

Post leadership should conduct an assessment of programming staff workloads and the
post might consider developing Peace Corps Volunteer Leader (PCVL) positions as an
additional level of Volunteer support. Indicators of a High Performing Post states,
“PCVLs can do a great deal to add support to the programming staff, particularly in the
critical area of direct support to Volunteers…PCVLs are a source of support widely used
in the Peace Corps and one which should be investigated by countries that currently do
not use them.”

Medical unit

In interviews, both PCMOs and Volunteers reported that the quality of medical support
was impacted by the health unit’s large volume of work. Volunteers reported that
PCMOs were too busy to fully investigate their medical complaints. In interviews with
two of the three PCMOs in the health unit, both reported a need for additional staff
because they do not have enough time to conduct all their duties, including site visits.
According to PC Technical Guideline 200, there are no fixed staffing ratios of PCMOs to
Volunteers due to a variety of mitigating factors; however, as a general guideline, a post
with good medical support should not have more than 80 Volunteers per PCMO. At the
onset of this evaluation there were 86 Volunteers per PCMO.

The effect of providing medical support to higher than recommended numbers of
Volunteers is a reduction in quality of support. Eighteen of the 42 Volunteers we
interviewed reported concerns with the quality of medical support. Volunteers lacked
confidence with medical opinions and feared being misdiagnosed.

The Office of Medical Services conducted a medical site visit of PC/Morocco in June
2009, which coincided with the fieldwork portion of this evaluation. OMS determined
that an additional part-time PCMO is needed to meet the current physical and mental
health care demands at the post. OMS recommends an additional part-time PCMO if the
year-round number of Volunteers exceeds 240. We concur with OMS, such a hire would
address the concerns raised during the OIG evaluation.

Safety and Security Coordinator

In an interview, the SSC reported that she often works late and on weekends and receives
a steady flow of work-related phone calls and text messages. The SSC stated, “I have no
control over my life” due to the high volume of contact. The after-hours calls puts an
unhealthy strain on the SSC that could affect the quality of Volunteer safety and security
support as well as the longevity of the position. In fact, shortly after completion of the
fieldwork portion of this evaluation, the SSC transferred to a programming position.

The SSC Statement of Work does not include after-hours responsibilities beyond
emergency situations. However, Volunteers were informed at PST to seek support from
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                         15
someone they trust when they are distressed, and the SSC had received a lot of these
support calls. Many of these calls are from female Volunteers seeking emotional support
related to harassment issues. Female Volunteers experience a high volume of harassment
from Moroccan men, particularly in larger towns and cities. Most incidents of
harassment are verbal but female Volunteers are also inappropriately touched and groped.
The SSC is female and also the staff contact for the sexual harassment working group,
which positions her to receive a lot of these calls.

An OMS site visit that coincided with the fieldwork portion of this evaluation determined
that Volunteers were using the SSC position to obtain emotional support in relation to
harassment incidents. Following its site visit, OMS recommended the addition of an SSC
assistant to reduce the SSC workload. In an interview, the Regional Security Officer at
the U.S. Embassy in Rabat also recommended additional staff to reduce the strain on the
SSC. The regional Peace Corps Safety and Security Officer (PCSSO) identified the high
volume of work in a consultation visit to Morocco in June 2008 as follows:

       Post has a strong safety and security program but staffing has not kept
       pace with the growth in Volunteers. The Embassy threat levels for
       terrorism, crime and political violence remains high and crime against
       Volunteers is increasing. Without additional staff, it will be difficult to
       provide adequate attention to Volunteer safety and security issues.

We concur with the recommendations of OMS, the RSO, and PCSSO that additional staff
are necessary to provide adequate Volunteer support in the area of safety and security.


              We recommend:

              9. That post leadership assess programming staff
                 work-load distribution and consider developing
                 PCVL positions.

              10. That the post increase staff to support the medical
                  unit.

              11. That the post increase staff to support the safety and
                  security coordinator.


Out-of-site reporting has increased but most Volunteers were not fully compliant with
the agency’s newly revised Whereabouts Notification Policy.

As shown in Table 5, fewer than one-third of the Volunteers we interviewed always
report when they leave site.



Final Program Evaluation Report: Peace Corps/Morocco
                                                                                      16
Table 5: Volunteer Whereabouts Reporting
                           Number of Responding                Percentage of Responding
 Frequency of reporting
                                 Volunteers                           Volunteers
Always                                12                                 29%
Most of the Time                      23                                 55%
Sometimes                             5                                  12%
Rarely                                 1                                  2%
Never                                  1                                  2%
Source: OIG Volunteer Interviews, 2009.



According to the PC/Morocco Policy and Procedure Handbook, Volunteers are required
to notify PC/Morocco “any time they are not at their work site during work days or do
not sleep in their community during non-work days.” Further guidance is provided in the
Whereabouts Notification Policy, which the agency revised in February 2009. The policy
states that whereabouts notifications are expected to be submitted one day in advance
when possible and are not valid until a confirmation has been received.

The SSC reported that duty officer reports confirm that the revised policy has increased
the rate of whereabouts reporting. Volunteers that we interviewed confirmed that
reporting has increased because the new policy is more lenient and flexible. The former
policy required approval from programming staff before a Volunteer could leave their
site and also required SSC approval when more than five Volunteers gathered in the same
location. However, comments from Volunteer interviews indicated that full compliance
with the revised policy is unlikely due to the following factors:

    1) Volunteers often do not report spontaneous out-of-site activities even when they
       are work-related. The “day in advance” policy expectation cannot always be met
       and it can take a full day or more to submit the notification and then receive
       confirmation, particularly for Volunteers without reliable cell phone or internet
       access. It was unclear to several Volunteers we interviewed whether the advance
       notification is a requirement.

    2) Volunteers run out of vacation days or do not want to lose vacation days
       and therefore do not report recreational travel time, even when unexpected
       travel delays occur.

    3) Volunteers are not always able or willing to get approval from their
       counterpart and notify security officials. A clause in the policy states that
       during the work week Volunteers are "expected to have the approval of
       his/her counterpart or supervisor (as designated by programming staff) and
       to notify the appropriate local and security officials."




Final Program Evaluation Report: Peace Corps/Morocco
                                                                                       17
   4) Volunteers are confused by the policy. One Volunteer commented, “The
      policy is really confusing. I don’t know when I’m supposed to text and
      when I’m not. Who am I supposed to tell?”

   5) The policy is not being consistently enforced.

As additional evidence of noncompliance with the policy, one Volunteer from our sample
was not at site on the day of the OIG interview. The PTO reported that the former group
of Volunteers completing service indicated the lack of out-of-site reporting was a real
issue and that maybe twice as many Volunteers were “on the move” every weekend than
reported. Our data from interviews would indicate that is not the case, but there is still
room for improvement. The fact that 71% of Volunteers sampled do not always notify
staff when they leave their site is a significant safety and security concern.

PC/Morocco should be commended for making adjustments that have raised the rate of
out-of-site reporting; however, the post should continue to improve compliance with this
policy.


               We recommend:

               12. That the post clarify the whereabouts notification
                   criteria.

               13. That the country director ensure consistent
                   enforcement of out-of-site policy infractions.


MANAGEMENT CONTROLS

Another key objective of the post evaluation is to assess the post’s planning and oversight
of operations, staff management and training, relationships with headquarters offices, and
performance reporting.

Programming staff seek increased levels of managerial involvement from the PTO and
wider involvement with the training program.

Programming staff reported that programming has been significantly impacted by recent
training initiatives, including the TDE process, the restructured PST and CBT model, and
the addition of two new training staff. One programming staff member felt overloaded
by the number of changes and another programming staff stated, “I think Program
Managers have [training] ideas, etc. but…not a way to get new ideas out on the table and
pushing for improvements. I strongly believe in weekly P&T meetings.”

Indicators of a High Performing Post states, “the link between programming and training
is an important one” and recommends, “Inclusion of a training officer in programming
Final Program Evaluation Report: Peace Corps/Morocco
                                                                                        18
meetings and programming strategy sessions, or at least, frequent meetings between the
sections, to include the training officer in program planning, analysis, strategizing, and
problem solving.” More contact between programming and training would provide
programming staff an opportunity to share ideas and discuss the impact of training
initiatives on programming.

Programming staff acknowledged that the PTO was continuously busy and the PTO
reported that he typically receives 40-50 emails a day that require a response.
Nonetheless, programming staff reported that they would like to see more involvement
from the PTO in programming issues. Some comments from programming staff
included:

       We could use more support, more meetings, more feedback – what is
       good, what is not. We do a yearly plan with the PTO – we’d like to have a
       monthly meeting to discuss the project.

       I would like to have sector meetings. The PTO, AO, and PCMOs are
       constantly busy with training cycles so the PMs are somewhat isolated.

       [The PTO] is very supportive – but he doesn’t check in to see where we
       are with things.

According to Indicators of a High Performing Post, “One of the quickest ways to
undermine communication and trust is to meet only when there is a problem…regular
group meetings are extremely important.” By developing more cohesion with
programming staff, the PTO will not only provide necessary support but reduce feelings
of isolation and promote increased trust and communication with programming staff.


               We recommend:

               14. That the PTO develop opportunities for
                   programming and training staff to collaborate.

               15. That the PTO increase the level of managerial
                   involvement with programming staff.


Some Volunteers had technical difficulties in submitting their performance reporting.

As part of the annual Project Status Reporting (PSR) process, Volunteers in PC/Morocco
are required to submit quarterly reports using the recently launched computer-based
Volunteer Reporting Tool (VRT). The performance data is reported to Peace
Corps/Headquarters through the PSR process and used in the agency-wide aggregation
included in the agency’s Performance and Accountability Report (PAR).

Final Program Evaluation Report: Peace Corps/Morocco
                                                                                         19
We interviewed 30 Volunteers who should have submitted a report for the second quarter
of 2009 and ten (33%) had not submitted a report. An OPATS specialist who conducted
a monitoring and reporting workshop in May 2009 reported the VRT return rate at that
time was only 50%. Of the Volunteers who did not submit reports, several encountered
computer compatibility issues; other Volunteers were unable to complete the VRT
because they only have access to cybercafés that operate with pirated software. Given
the significance of the PAR data, it is important for all Volunteers to submit accurate,
timely reports. The OIG determined that PC/Morocco is in the process of developing
technical solutions so that all Volunteers are able to access and submit their performance
reporting data.


               We recommend:

               16. That post identify ways for Volunteers with
                   technical difficulties to submit a hard copy of
                   performance data.




Final Program Evaluation Report: Peace Corps/Morocco
                                                                                       20
                                POST STAFFING
At the time of our field visit, PC/Morocco had 39 staff positions, two of which were
vacant. The positions included three U.S. direct hire employees (USDH), one foreign
service national (FSN), and 35 personal services contractors (PSC). The post also
employs temporary staff/contractors to assist with PST. Given the time of our visit, the
PST contractor positions were not staffed. We interviewed 15 staff members.

                                  PC/Morocco Positions
                           Position                        Status       Interviewed
     Country Director                                    USDH                X
     Programming & Training Officer                      USDH                X
     Administrative Officer                              USDH                X
     Safety and Security Coordinator                     PSC                 X
     PCMO (3 total, 2 interviewed)                       PSC                 X
     Medical Administrative Assistant                    PSC
     Executive Assistant & SPA Coordinator               PSC                 X
     IT Specialist                                       PSC
     Program Manager/Health                              PSC                 X
     Program Manager/Small Business Development          PSC                 X
     Program Manager/Youth Development                   PSC                 X
     Program Manager/Environment                         PSC                 X
     Program Assistant/Health                            PSC                 X
     Program Assistant/Youth Development                 PSC                 X
     Program Assistant/Environment                       PSC                 X
     Program Assistant/Small Business Development        Vacant
     Training Manager                                    PSC                 X
     Home-stay Coordinator                               PSC
     Language & Cross-Culture/PST Coordinator (2)        PSC
     IRC Manager                                         PSC
     Financial Assistant/Budget                          PSC
     Administrative Assistant/PCV Support                PSC
     General Services Officer                            PSC
     General Services Assistant                          PSC
     Cashier                                             FSN
     Receptionist/Travel Assistant                       PSC
     Mail Clerk                                          Vacant
     Driver (3)                                          PSC
     Maintenance Personnel                               PSC
     Guards (5)                                          PSC
    Data as of May 2009.




Final Program Evaluation Report: Peace Corps/Morocco
                                                                                       21
                         INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 42 Volunteers, 15 in-
country staff members, and 21 representatives from Peace Corps headquarters in
Washington, D.C., the U.S. Embassy in Morocco, and Ministry officials.
                Interviews Conducted with PC/Headquarters Staff,
                      Embassy Officials, and Ministry Partners
                       Position                              Organization
 Regional Chief of Operations/Acting Regional       PC/Headquarters
 Director
 Regional Programming & Training Advisor            PC/Headquarters
 Regional Chief Administrative Officer              PC/Headquarters
 Peace Corps Safety & Security Officer (Former      PC/Headquarters
 Regional Safety & Security Desk Officer)
 Country Desk Officer                               PC/Headquarters
 Health Program & Training Specialist               PC/Headquarters
 Youth Development Program & Training               PC/Headquarters
 Specialist
 Evaluation Specialist                              PC/Headquarters
 Charge d’Affaires & Acting Ambassador              U.S. Embassy in Morocco
 Regional Security Officer                          U.S. Embassy in Morocco
 Deputy Regional Security Officer                   U.S. Embassy in Morocco
 Regional Director                                  Ministry of Water & Forest
 Chief, Division of Parks & Natural Reserves        Ministry of Water & Forest
 Head of Management, Division of Parks & Natural Ministry of Water & Forest
 Reserves
 Chief, Division of Forest Management               Ministry of Water & Forest
 Chief, Innovation and Promotion Department         Ministry of Tourism, Artisans,
                                                    & Social Economy
 Head of NGOs                                       Ministry of Health
 Director, Childhood, Youth & Women’s Affaires      Ministry of Youth & Sports
 Director, Youth Houses                             Ministry of Youth & Sports
 Director, Youth & Travel                           Ministry of Youth & Sports
 National Youth Coordinator                         Ministry of Youth & Sports
 Data as of June 2009.




Final Program Evaluation Report: Peace Corps/Morocco
                                                                                        22
                       LIST OF RECOMMENDATIONS

We recommend:

1. That youth development project staff establish a PAC with the Ministry of Youth and
   Sport.
2. That small business development project staff establish a PAC with the Ministry of
   Tourism, Artisans, and Social Economy.
3. That the post reassess the feasibility of the youth development project plan’s third
   goal with Volunteers, project partners, and OPATS.
4. That the post implement the strategy outlined in its IPBS to enhance the effectiveness
   of cross-cultural training sessions.
5. That the post develop criteria to select appropriate language tutors and provide
   alternative language learning support if a tutor cannot be found.
6. That post enhance LCF training to accommodate the language learning needs of older
   trainees.
7. That the post implement a strategy to improve the PST planning and increase the
   level of experience of PST staff.
8. That the post incorporate racial harassment awareness and coping mechanisms into
   the training curriculum.
9. That post leadership assess programming staff work-load distribution and consider
   developing PCVL positions.
10. That the post increase staff to support the medical unit.
11. That the post increase staff to support the safety and security coordinator.
12. That the post clarify the whereabouts notification criteria.
13. That the country director ensure consistent enforcement of out-of-site policy
    infractions.
14. That the PTO develop opportunities for programming and training staff to
    collaborate.
15. That the PTO increase the level of managerial involvement with programming staff.
        
16. That post identify ways for Volunteers with technical difficulties to submit a hard
    copy of performance data.


Final Program Evaluation Report: Peace Corps/Morocco
                                                                                          23
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:   Kathy Buller, Inspector General
Thru: Nicola Cullen, Acting Agency Compliance Officer
From: David Burgess, Acting Regional Director of Europe, Mediterranean & Asia

Date: December 31, 2009

Subject: Response to the Preliminary report of the Office of Inspector General Program
Evaluation of Peace Corps/Morocco


Enclosed please find the Region’s response to the recommendations made by the Inspector
General for Peace Corps/Morocco, as outlined in the Preliminary Report of the IG Program
Evaluation.

The Region concurs with all recommendations.
                RESPONSE
           to the November 2009

        PRELIMINARY REPORT

                  of the
       Office of Inspector General
Program Evaluation of Peace Corps/Morocco
        Conducted June 1 -24, 2009




             December 31, 2009
MOROCCO - EMA Region Response to Preliminary OIG Report                          December 2009



SUMMARY

The Europe, Mediterranean and Asia (EMA) Region concurs with all sixteen
recommendations provided by the OIG in its “Preliminary Program Evaluation Report:
Peace Corps / Morocco (November 2009).” The Region and post welcome the insights and
information offered by the OIG Evaluation Report.

The EMA Region agrees with OIG that PC/Morocco has “qualified, professional, and
experienced staff members dedicated to the Peace Corps mission. The Region also notes that
98% of Peace Corps Volunteers in Morocco are satisfied with their site placements.


                      RESPONSE TO RECOMMENDATIONS

PROGRAMMING

1. Recommendation: That youth development project staff establish a PAC with the
Ministry of Youth and Sport.


5 Concur

Post has begun the process of establishing a PAC with the Ministry of Youth and Sport. This
PAC should be fully established by June 30, 2010.

Post had a formal meeting with the representatives of all 4 host Ministries at the Ministry of
Foreign Affairs on November 21, 2009. At the meeting, the idea of initiating a PAC with the
Ministry of Youth & Sport was discussed and supported by all attending. At the conclusion
of the meeting, the PTO encouraged all participants to use PACs for more effective
communication and management of the programs at the strategic level.

Post has also met with the new Secretary General (SG) for Youth and Sports on several
occasions in the past 4 months. Formulation of a PAC has been one of the topics discussed in
these meetings.

Most recently, organization of a PAC was discussed during the Mid-Service Medical
conference on December 10, 2009 in a special meeting organized by YD staff for 2nd year
YD PCVs to meet with the SG at PC/Morocco. Additionally, the SG has requested a
consultant from Peace Corps to work with him and his staff to enhance collaboration,
including formalizing a PAC.

Post has requested the assistance of the EMA PTA, or someone else from HQ, in January
2010. This occasion will be used to bring together representatives of YD program
stakeholders and will be the formal initiation of a YD program PAC. With or without
assistance from a HQ consultant, this PAC should be fully established by June 30, 2010.

       Action & Status

       Date of Completion: July 2010


                                              3
MOROCCO - EMA Region Response to Preliminary OIG Report                          December 2009


       Documentation:                1. Rec. 1-2-3 MFA Meeting notes .doc
                                     2. Rec. #1 MSM 2009 schedule.doc
                                     3. Rec. #1-3 Consultant Request E-mail.msg


2. Recommendation: That small business development project staff establish a PAC with
the Ministry of Tourism, Artisans, and Social Economy.

5 Concur

Post has begun the process of establishing a PAC with the Ministry of Tourism, Artisans, and
Social Economy. This PAC should be fully established by June 30, 2010.

Post had a formal meeting with the representatives of all 4 host Ministries at the Ministry of
Foreign Affairs on November 21, 2009. At the meeting, the idea of initiating a PAC with the
Ministry of Youth & Sport was discussed and supported by all attending. At the conclusion
of the meeting, the PTO encouraged all participants to use PACs for more effective
communication and management of the programs at the strategic level.

The SBD program is also currently working with the OPATS specialist to revise its Project
Plan by early 2010. Formation of a PAC is included in the SBD’s strategy for success as a
“best practice.” Discussions have been held on several occasions with the host Ministry point
of contact. With final OPATS approval of the “draft” Project Framework (expected by
January 1, 2010), PC/Morocco plans to organize a meeting with representatives of all project
stakeholders early in the year. This event will be the initiation of an SBD Project PAC and
should be fully implemented by June 30, 2010.

       Action & Status

       Date of Completion: July 2010
       Documentation: Rec. 1-2-3 MFA Meeting notes .doc



3. Recommendation: That the post reassess the feasibility of the youth development project
plan’s third goal with Volunteers, project partners, and OPATS.

5 Concur

Post had a formal meeting with the representatives of all 4 host Ministries at the Ministry of
Foreign Affairs on November 21, 2009. At the meeting, the idea of initiating a PAC with the
Ministry of Youth & Sport was discussed and supported by all attending. At the conclusion
of the meeting, the PTO encouraged all participants to use PACs for more effective
communication and management of the programs at the strategic level.

Post has begun the process of establishing a PAC with the Ministry of Youth and Sport. Post
has requested the assistance of the EMA PTA, or someone else from HQ, in January 2010.
This occasion will be used to bring together representatives of YD program stakeholders and
will be the formal initiation of a YD program PAC. With or without assistance from a HQ
consultant, this PAC should be fully established by June 30, 2010.


                                              4
MOROCCO - EMA Region Response to Preliminary OIG Report                         December 2009




   Action & Status

       Date of Completion: July 2010
       Documentation:       1. Rec. 1-2-3 MFA Meeting notes .doc
                            2. Rec. #1-3 Consultant Request E-mail.msg


CROSS-CULTURAL UNDERSTANDING


4. Recommendation: That the post implement the strategy outlined in its IPBS to enhance
the effectiveness of cross-cultural training sessions.

5 Concur

Post has implemented its strategy outlined in its IPBS to enhance the effectiveness of the
cross-cultural training sessions. The most recent PST in Morocco was held from September
– November, 2009. Morocco’s LCC created new, interactive cross-culture training sessions
that were implemented by PST staff during this PST. In the final PST evaluation, 100% of
trainees rated the PST as either “excellent” or “good.” Several trainees specifically
commented that the cross-culture training component was very effective. These same
sessions will be implemented in future PSTs.

   Action & Status

       Date of Completion: November 2009
       Documentation:      1. Rec. #4 Values session plan.doc
                           2. Rec. #4 Barnga_session plan.rtf
                           3. Rec. #4 BARNGA Guidesheets.doc
                           4. Rec. #4 YD PST Feedback.doc
                           5. Rec. #4 SBD PST Feedback.doc

TRAINING


5. Recommendation: That the post develop criteria to select appropriate language tutors and
provide alternative language learning support if a tutor cannot be found.


5 Concur

Post has adopted new criteria that PCVs can use when selecting a language tutor. These
criteria were adapted from Peace Corps’ On-going Language Learning Manual.

Post has begun using the On-going Language Learning Manual as a resource for alternative
language learning support. As of July 2009, the Country Desk Officer directs all invitees to
the online version of this resource, available through the Peace Corps website. This manual
helps trainees and PCVs identify and reflect on personal learning styles, attitudes and
motivation; organize learning; and experiment with a variety of strategies and tools for


                                              5
MOROCCO - EMA Region Response to Preliminary OIG Report                         December 2009


independent language learning. This manual was referenced as a resource for PCVs during
the Fall 2009 PST and will continue to serve as a training resource during the Spring 2010
PST. All currently serving PCVs have been made aware of this resource through PST, ISTs,
and regular e-mail updates. Hardcopies of this resource are available to all PCVs through
ICE.

   Action & Status

       Date of Completion: November 2009
       Documentation:            1. Rec. #5 Criteria for Tutor.doc;
                                 2. Rec. #5 OPATS 2010 FAR Decision Memo.msg;
                                 3. Rec. #5 Ongoing Language.pdf


6. Recommendation: That post enhance LCF training to accommodate the language
learning needs of older trainees.


5 Concur

On November 12, 2009 PC/Morocco swore-in a group of 57 trainees, 9 of whom were over
the age of fifty. In July, prior to this group’s arrival in Morocco, post had initiated
conversations with the program manager of the 50+ initiative at HQ regarding how post could
best support the language learning needs of these older trainees during PST.

During their two-week Training of Trainers (TOT), LCFs received enhanced training,
focusing on providing differentiated learning instruction for these older trainees. Sessions
included topics specific to adult learning principles. LCFs implemented these specific
strategies in their language classrooms during the recent PST from September – November
2009. As a result of these newly implemented strategies, eight of nine 50+ trainees reached
the “Novice High” minimum requirement. Of the 48 trainees under the age of fifty, 45
reached the “Novice High” minimum requirement. There was not a significant difference in
the LPI passing rate of these two groups.

   Action & Status

       Date of Completion: September – November 2009
       Documentation:      1. Rec. #6 PST LPI Scores.11.2009.xls;
                           2. Rec. #6.TOT Booklet Q4 FY2009;
                           3. Rec. #6.TOT Session-Objectives.doc;
                           4. Rec. #6.Lang & Older Learner.doc;
                           5. Rec. #6.Adult Learning.doc;
                           6. Rec. #6.Facilitation Skills.ppt;
                           7. Rec. #6.Professional Behavior.ppt;
                           8. Rec. #6.ALM.doc;
                           9. Rec. #6.Guiding questions.doc;
                           10. Rec. #6.CLT.doc;
                           11. Rec. #6.Guiding questions CLT.doc




                                              6
MOROCCO - EMA Region Response to Preliminary OIG Report                          December 2009


7. Recommendation: That the post implement a strategy to improve PST planning and
increase the level of experience of PST staff.

5 Concur

Post has implemented a strategy to improve PST planning and increase the level of
experience of PST staff. In addition, post has developed a “PST preparation checklist” based
on Peace Corps’ Programming and Training Booklet 6, How to Integrate Programming and
Training. This checklist ensures that a four-tiered approach governs the PST planning
process and that staff works collaboratively to accomplish the goals of PST. This checklist is
currently being implemented in the planning of the upcoming Health/Environment PST in
March – May 2010.

   Action & Status

       Date of Completion: September 2009 and ongoing
       Documentation:       1. Rec. #7.PST Planning Checklist.doc;
                           2. Rec. #7.Integrating Programming & Training.pdf


8. Recommendation: That the post incorporate racial harassment awareness and coping
mechanisms into the training curriculum.

5 Concur

Post implemented “Intro. to Diversity” and “Harassment & Unwanted Attention” sessions
into the recent PST training curriculum (September – November 2009). Racial harassment
awareness and coping mechanisms topics were covered during these sessions.

   Action & Status

       Date of Completion: October 2009
       Documentation:            1. Rec. #8.Unwanted Attention - revised.ppt;
                                 2. Rec. #8.Taking Action session design.doc;
                                 3. Rec. #8.Unwanted Attention-Harassment.
                                 Session.doc;
                                 4. Rec. #8 YD Weeks 1 & 5 PST Schedule.doc
                                 5. Rec. #8 SBD Week 1 & 5 PST Schedule.doc


VOLUNTEER SUPPORT


9. Recommendation: That post leadership assess programming staff work-load distribution
and consider developing PCVL positions.

5 Concur

Post leadership has assessed programming staff work-load distribution and concurs that
programming staff is challenged with managing heavy workloads. Post is considering


                                              7
MOROCCO - EMA Region Response to Preliminary OIG Report                          December 2009


developing PCVL positions which will assist in alleviating certain aspects of these heavy
work burdens. As mentioned in the IG report, programming staff spend approximately 40-
50% of their time traveling out of the office conducting site visits.

Post would initially like to develop three PCVL positions, one “Project Volunteer Leader”
who will be based in Rabat and work part-time with the Post staff, and two “Regional
Volunteer Leaders,” based in regional hubs who will provide direct support to PCVs in the
field. Post has developed PCVL descriptions of work and will begin a PCVL selection
process with the group that is scheduled to COS in May 2010.

   Action & Status

       Date of Completion: September 2009
       Documentation:             1. Rec. #9.PCVL description.doc
                                  2. Rec. #9 PROGRAMMIMG STAFF PER DIEM.XLS



10. Recommendation: That the post increase staff to support the medical unit.


5 Concur

The EMA Region leadership has already authorized post to hire a part-time PCMO. The
Region has also submitted an RAR to fund another 0.5 PCMO position (in addition to the one
that region has already funded) and a medical assistant.

On November 20, the EMA Region also approved a full-time TDY US PCMC for
PC/Morocco. That PCMC has been working in Rabat from 11/29/2009 through the present
to provide the medical unit with extra support. This PCMC is staying in Morocco through
December. Upon the departure of this TDY PCMC, another TDY PCMC will be assigned to
Morocco until the additional full-time PCMC is hired.

   Action & Status

       Date of Completion: December 2009
       Documentation: Rec. #10 Ren Nelson memo.pdf


11. Recommendation: That the post increase staff to support the safety and security
coordinator.

5 Concur

Post hired a full-time Assistant Safety & Security Coordinator on September 28, 2009. As
part of her duties, the assistant SSC serves as permanent duty officer during working hours.

   Action & Status

       Date of Completion: September 2009


                                              8
MOROCCO - EMA Region Response to Preliminary OIG Report                         December 2009


       Documentation: Rec. #11 PTS ( ASSC).9.2009.rtf

12. Recommendation: That the post clarify the Whereabouts Notification criteria for PCVs.

5 Concur

Post clarified its Whereabouts Notification criteria for the PCVs in August 2009. A revised
copy of this Whereabouts Policy was disseminated to all PCVs. In addition, the SSC
assistant serves as permanent duty officer during regular working hours, allowing for very
consistent whereabouts policy messaging.

       Date of Completion: August 2009
       Documentation: Rec. #12-13.Whereabouts Policy 8.6.2009.doc


13. Recommendation: That the Country Director ensure consistent enforcement of Out-of-
Site policy infractions.

5 Concur

The Country Director has established Whereabouts Policy enforcement criteria with the SSC
assistant. Additionally, the SSC assistant serves as permanent duty officer during regular
working hours, allowing for very consistent whereabouts policy messaging. (Note: PC Hq.
rescinded the agency’s “Out-of-Site” and “Out-of-Site Leave” P\policies in February 2009.
Posts have replaced them with “Whereabouts Notification” and “Out of Community”
policies.)

   Action & Status

       Date of Completion: October 2009
       Documentation:             1. Rec. #12-13.Whereabouts Policy 8.6.2009.doc
                                  2. Rec. #13 OOC Enforcement Criteria.doc


MANAGEMENT CONTROLS

14. Recommendation: That the PTO develop opportunities for programming and training
staff to collaborate.

5 Concur

Since July 2009, the PTO has conducted regular programming and training meetings. A total
of 12 programming and training meetings have been held on the following dates:

       July: 13th (2 meetings), 15th
       August: 10th, 18th, 19th
       September: 16th
       October: 13th, 16th, 19th
       November: 9th, 16th, 23rd
       December: 14th


                                              9
MOROCCO - EMA Region Response to Preliminary OIG Report                         December 2009




Additionally, the PTO has arranged several trainings for the programming and training staff.
The following trainings have already taken place in 2009:

       June 25th (VIDA)
       August 27th (“Healthy Messages”)

The PTO will continue to conduct regular programming and training meetings and regular
trainings. At the meetings, programming and training staff have a chance to discuss pressing
issues/concerns and collaborate on appropriate post operations.

   Action & Status

       Date of Completion: July 2009 and ongoing
       Documentation:       1. Rec. #14.July.mht
                            2. Rec. #14-15.August.mht
                            3. Rec. #14.September.mht
                            4. Rec. #14-15.October.mht
                            5. Rec. #14.November.mht
                            6. Rec. #14.December.mht

15. Recommendation: That the PTO increase the level of managerial involvement with
programming staff.

5 Concur

Since August, the PTO has met individually with each programming sector group. These
regular meetings provide opportunities for the PTO to receive updates, discuss strategy, and
provide an extra level of managerial support for the programming team.

Programming sector meetings have been held on the following dates:

August: 18th (Environment), 27th (Health)
October: 15th (Youth Development), 22nd (Small Business Development, Youth
Development)

   Action & Status

       Date of Completion: August 2009 and ongoing
       Documentation:      1. Rec. #14-15.August.mht
                           2. Rec. #14-15.October.mht


16. Recommendation: That post identify ways for Volunteers with technical difficulties to
submit a hard copy of performance data.

5 Concur




                                             10
MOROCCO - EMA Region Response to Preliminary OIG Report                     December 2009


PCVs are encouraged to use the electronic VRT to submit performance data. However,
PCVs who experience technical difficulties are asked to submit hard copies of their
performance data through a “VRT booklet.”

   Action & Status

       Date of Completion: October 2009
       Documentation:      1. Rec. #16 VRT Booklet.doc




                                             11
APPENDIX B

                                  OIG COMMENTS

Management concurred with all 16 recommendations. We closed recommendations 4 -
16. Recommendations 1, 2, and 3 remain open pending confirmation from the chief
compliance officer that the following has been received:

    •   For recommendation 1, documentation that the youth development project has
        established a project advisory committee with the Ministry of Youth and Sport.
        Acceptable forms of documentation include meeting minutes, schedule of meeting
        times, and meeting sign-in sheet.

    •   For recommendation 2, documentation that the small business development
        project has established a project advisory committee with the Ministry of
        Tourism, Artisans, and Social Economy. Acceptable forms of documentation
        include meeting minutes, schedule of meeting times, and meeting sign-in sheet.

    •   For recommendation 3, documentation of the post’s decision regarding the
        feasibility of the youth development project plan’s third goal. The documentation
        should include how Volunteers, project partners, and Office of Overseas
        Programming and Training Support contributed to the post’s feasibility
        assessment.

Although we have closed recommendation 9, we would like to remind PC/Morocco that
Peace Corps Volunteer Leader roles must be developed using the guidance in Peace
Corps Manual section 202. This guidance requires that a Peace Corps Volunteer Leader is
involved in a “substantive Volunteer program or activity with an assigned counterpart.”

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C


         PROGRAM EVALUATION COMPLETION
               AND OIG CONTACT

OIG CONTACT        Following issuance of the final report, a stakeholder
                   satisfaction survey will be distributed. If you wish to
                   comment on the quality or usefulness of this report to help
                   us improve our products, please e-mail Susan Gasper,
                   Acting Assistant Inspector General for Evaluation and
                   Inspection, at sgasper@peacecorps.gov, or call
                   202.692.2908.

STAFF              This program evaluation was conducted under the
                   direction of Susan Gasper, Acting Assistant Inspector
ACKNOWLEDGEMENTS
                   General for Evaluations, and by Evaluators Reuben
                   Marshall and Susan Gasper.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915

Fax:           202.692.2901

Email:         oig@peacecorps.gov
